                         Office of Inspector General
                         Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Str~t, NW. 3rd Floor
Washington. DC 20007 ~3558
202.295.1 660 (p) 202.337.6616 (f)
www.oig.lsc.gov



     June 30, 2014


     Ms. Janice R. Morgan
     Executive Director
     Legal Services of Oregon
     520 SW Sixth Avenue, Suite 1130
     Portland, OR 97204

      Dear Ms. Morgan :

     Enclosed is the Office of Inspector General's (OIG) final report for our audit of Selected
     Internal Controls at Legal Services of Oregon (LASO). The OIG has reviewed your
     comments on the findings and recommendations in the draft report. Your comments are
     included in the final report as Appendix II.

     The OIG considers your actions responsive to Recommendations 1 and 2 and those
     recommendations are considered closed.

     The OIG also considers your planned actions to address Recommendations 3, 4 and 5 as
     responsive to the findings and recommendations contained in the report. However,
     Recommendations 3, 4, and 5 will remain open until the OIG is notified in writing that they
     have been completed or implemented.

     The OIG is referring $4,789.08 in questioned costs to LSC Management for their
     determination. These costs involve local bar dues that were allocated to LSC funds through
     your pooled expense account.

     Also, as a result of your comments, we eliminated the Eugene branch office from the list of
     field offices detailed in the background section of the draft report.




                                                                                 =ILLSC
                                                                                 II ~.r_F.o'Eq>ulJu"ja
We thank you and your staff for your cooperation and assistance.


Sincerely,




M-.~"*
Inspector General


Enclosure


cc:    Legal Services Corporation
       Jim Sandman, President
       Lynn Jennings, Vice President for Grants Management
      LEGAL SERVICES CORPORATION

      OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL CONTROLS


      LEGAL AID SERVICES
          OF OREGON
               RNO 938004




             Report No. AU14-06

                 June 2014


               www.oig.lsc.gov
                                           TABLE OF CONTENTS


INTRODUCTION .............. ..... .. ................. ............ ...................... ... ...... .. ............. .. 1

BACKGROUND ........... ..... ............................ .... ...... .. .. ................................ .......... 1

OBJECTiVE ....................................................... ... ..... ... .... ...... ... .................. ......... 2

OVERALL EVALUATION ............... ................ ... .......... ........ ................ .. .......... ..... 2

AUDIT FINDINGS ........................ ...... ................................................................... 3

     DiSBURSEMENTS .. .................. .. ...... ................ .. ................................. .. ......... 3
      Recommendation 1 ............................................ ... ......... .. ......... ... ... ...... .. ...... 4

    CREDIT CARDS ...................................................... ...... ...... ... ... .. .......... .......... 4
     Recommendation 2 ........................ ..... ..... .... ............... .. .. .. .. ... ... ... .............. ... 5

    CONTRACTING ........ .. ..... ... ...... ... ... .. .............. .. ........... .... ..... ... .. .... ................. 5
     Recommendation 3 ....... ................................... ...................... ... .. ... ... ............ 6

     DOCUMENTING POLICIES AND PROCEDURES .............. .. ............ .. ......... 6
      Recommendation 4 ........................................................... ..... ....................... 7
      Recommendation 5 ........................... ............................................................ 7

SUMMARY OF GRANTEE MANAGEMENT COMMENTS ................................. .. 8

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ....................... 8

APPENDIX I - SCOPE AND METHODOLOGy ............ ...... ........... .... .... .. .... .... I - 1

APPENDIX 11- GRANTEE MANAGEMENT COMMENTS .............................. II - 1
                                  INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls at Legal Aid Services of Oregon (LASO or
grantee), Portland, Oregon, related to specific grantee operations and oversight. Audit
work was conducted at the grantee's main office in Portland, Oregon and at LSC
headquarters in Washington, DC. The initial on-site fieldwork was conducted from
January 8, 2013 to January 15, 2013. The OIG conducted a second on-site visit on
November 4th to November 5th 2013. Documents reviewed pertained to the period
January 1, 2011 through August 31, 2012.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee "". is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows :

      [T)he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program .

Chapter 3 of the Accounting Guide further provides that each grantee "must rely [ ) upon
its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.


                                  BACKGROUND

The mission of Legal Aid Services of Oregon is to achieve justice for the low-income
communities of Oregon by providing a full range of the highest quality civil legal
services. With a staff of more than 80 , including 46 attorneys, the grantee handles over
8,000 cases each year. Program priorities include work on domestic violence, public
benefits and housing issues.

LASO provides representation on civil cases to low-income clients throughout Oregon.
LASO has field offices located in Albany, Bend, Klamath Falls, Newport, Pendleton,
Portland, Roseburg and Salem. Offices in Woodburn, Hillsboro and Pendleton service
farmworker clients statewide. The Native American Program provides representation on
Native American Issues. The Central Administrative Office for the program is located in
Portland .

                                            1
The grantee's funding sources for fiscal (FY) years 2011 and 2012 were as follows :

              Type of Funding           FY2011        FY2012
           Basic - LSC               $3,353,985     $ 2,862,298
           Mi~rant - LSC                614,809         524,680
           Native American - LSC        204,192         173,862
           Non-LSC Fundin~            4,036,901       3,312,430


                                 OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal controls in
place at LASO as the controls related to specific grantee operations and oversight,
includ ing program expenditures and fiscal accountability. Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.

                            OVERALL EVALUATION

Internal controls reviewed and tested at LASO were adequate as the controls related to
specific grantee operations and oversight. Controls over program expenditures and
fiscal accountability were generally adequate. Our evaluation and testing of controls in
the areas of cost allocation, internal budgeting, management reporting , and property
and equipment revealed that internal controls in those areas were adequate and
operating as intended . Controls over salary advances were properly designed .
Because no salary advances were made during the period under review , we could not
test the operation of those controls.

However, the OIG determined that in years 2009,2010 and 2011 a portion of local bar
dues was incorrectly charged to LSC. In 2009, $2,850 was incorrectly charged to LSC;
in 2010, $3,329.96 was erroneously charged; and finally in 2011, $2,920 was incorrectly
charged , for a total of $9,099.96 over the three years. For 2012, these charges
amounted to $1,580 and were reclassified by grantee management to a non-LSC
funding source prior to the OIG leaving the grantee site.

In its response to the OIG draft, the grantee provided clarification with respect to the
local bar dues allocation process. The grantee stated that it uses a cost allocation
method that includes an expense pool for LSC-eligible expenses. Under their
accounting practices, non-LSC-eligible expenses are not to be included in their pooled
expense account. They acknowledge that in 2009 - 2011 , they erroneously coded a
non-LSC-eligible expense (local bar dues) to that pool and the amount of local bar dues
paid for those 3 years totaled $9 .099.96. However, the grantee explained that only a
portion of the amount was allocated to LSC. As a result, based on the grantee's


                                           2
explanation of the amounts allocated to LSC in 2009, 2010 and 2011, the OIG
questions $4,789.08.

The OIG also found that the Director of Finance was not aware of nine credit cards used
by grantee staff. However, the Director of Finance stated he was aware the accounts
existed because the central office received and paid the bills. These cards were Office
Depot and Staples credit cards used to procure office supplies by the grantee's various
offices . The nine cards had credit limits ranging from $1,800 to $20,000 . The cards
were not given out in accordance with LASO's credit card policy. As such, no records
were on file documenting the approved issuance of the cards. With regard to
contracting, the grantee awarded three sole source contracts totaling $87,005 without
documenting a written justification for the sole source award. In addition, the OIG found
the grantee's current practices for central office purchasing and derivative income were
not documented in the grantee's accounting manual.


                                  AUDIT FINDINGS

DISBURSEMENTS

In general, disbursements were properly approved and adequately documented.
Written policies and procedures were in accordance with the Fundamental Criteria of an
Accounting and Financial Reporting System (Fundamental Criteria) contained in the
LSC Accounting Guide. However, these procedures were not followed in two instances.

The OIG found the following :

Local Bar Dues

In FY 2009, 2010 and 2011, the grantee erroneously charged $2,850, $3,329 .96 and
$2,920 in local bar dues respectively to LSC, totaling $9,099.96. These costs were
initially recorded to a pooled expense account and then a portion of that cost allocated
to LSC in accordance with the grantee's cost allocation methodology. Subsequent to
the issuance of the draft report, the grantee provided clarification on its process for
allocating local bar dues. The grantee stated that they use a cost allocation method that
includes an expense pool for LSC-eligible expenses. Under their accounting practices,
non-LSC-eligible expenses are not to be included in their pooled expense account.
They acknowledged that they erroneously coded local bar dues to the pooled account
totaling $9,099.96, however, only a portion of that amount was allocated to LSC.
Consequently, as detailed by the grantee, the portion allocated to LSC was only
$4,789.08.

According to LSC regulation 45 CFR 1627.4, LSC funds may not be used to pay
membership fees or dues to any private or nonprofit organization, whether on behalf of
a grantee or an individual. Therefore, the OIG is questioning the $4,789.08 in local bar



                                            3
dues allocated to LSC through the pooled expense account.                         The OIG will refer the
questioned costs to LSC management for review and action .1

The grantee maintained an internal written policy in accordance with the LSC regulation
prohibiting membership fees or dues paid to any private or nonprofit organization,
except those mandated by a governmental organization to engage in a profession, from
being allocated to LSC funds . However, the grantee did not follow this written policy in
practice. The costs for 2012, amounting to $1,580, were subsequently reclassified to
another funding source other than LSC while the OIG was still on site.

Recommendation 1. The Executive Director should ensure that the grantee follow its
written policy addressing the payment of bar dues and membership fees.


CREDIT CARDS

The OIG found that LASO management was not fully aware of all the outstanding credit
cards being used by the organization. The listing of credit cards provided to the OIG by
the LASO's Central Accounting Office did not include all LASO credit cards and
authorized credit card users .

Through our disbursement test work, we found that credit card expenditures were
properly approved , supported , allowable and allocable to LSC. However, the OIG
discovered nine credit cards that were assigned to employees that were not issued in
accordance with the grantee's credit card policy. Those credit cards were for the
purchase of office supplies.

                                          Credit
                             Office                                    Store
                                          Limit
                      Central              $ 5,550                Office Depot
                      OR City'               1,800                Office Depot
                      Marian Polk            2,200                Office Depot
                      Klamath Falls         15,000                Office Depot
                      Portland               5,250                Office Depot
                      Hillsboro              4,500                Office Depot
                      NAPOLS                 5,000                Office Depot
                      Klamath Falls         20 ,000                 Staples
                      Albany                 3,000                  Staples
                        'card canceled March 2012



'Grantee management acknowledged erroneously coding local bar dues to a pooled expense account which
allocated $4,789.08 to LSC over the 3 years. However, they explained that in each year, they charged more in LSC
eligible charges to other non LSC funding sources than they charged incorrectly to local bar dues. As such, the
grantee believes that those LSC eligible expenditures charged to non LSC funding sources more than offsets the
total amount of local bar dues incorrectly charged to LSC.

                                                       4
The Director of Finance stated he was not aware that the Staples and Office Depot _
accounts were credit cards, and the accounts were opened prior to his employment by
LASO. The Director of Finance could not locate the LASO credit card forms required by
the grantee's policy.

A credit card authorization and usage form is required to be prepared for each credit
card. In the case of the office supply store cards, the grantee could not find the related
credit card authorization forms we requested. The grantee's credit card policy states
that "Only employees authorized by the Executive Director may use a LASO credit card.
Central Accounting maintains a list of all authorized users".

Maintaining an accurate listing of corporate credit cards and ensuring each authorized
credit card user signs LASO's credit card policy is key to controlling LASO resources.
By the grantee not knowing what credit cards are available within the program , fraud ,
waste or misuse could occur and not be detected in a timely manner.

Recommendation 2. The Executive Director should instruct the Director of Finance to
evaluate the current credit card procedures to determine whether they are adequate
and if any changes need to be made to ensure all credit cards issued are properly
authorized and controlled.

CONTRACTING

Retaining Written Justifications

During the period under review, the grantee awarded three sole source contracts
without documenting the justification as to why the contracts were awarded without
competition . Grantee management stated that due to past associations with the
consultants , management determined these consultants were the best fit.

All three contracts were awarded when the grantee did not have written contracting
procedures in place. The grantee subsequently implemented written contracting
policies and procedures in June 2012. The new contracting policies and procedures
adequately addressed competition, the need for documenting all contracting actions,
and conform with LSC's Fundamental Criteria.

The three contract values were as follows:

   1. Contract 1- Value not stated in contract (Contractor was paid $42,005 and
      $37,000 respectively in 2011 and 2012)
   2. Contract 2 - $6 ,000
   3. Contract 3- $2 ,000

Contract 1 was entered into in 1999 for IT support and was awarded without
competition. Since then, the contract has been continually renewed without competition
and/or without documenting the justification for awarding a sole source contract.


                                             5
Contract 2 was also awarded without competition and written justification was not
available. The contract is with a former employee who worked for the grantee ten years
ago and, due to his specialized knowledge in grantee operations, was called upon to fill
in for a regional director who was on parental leave. Contract 3 was awarded without
competition and no written justification for the contract was provided. According to
grantee management, the contract was awarded based on the fact the consultant had
specialized experience in Native American Program operations.

The LSC Fundamental Criteria requires that the process used for each contract action
be fully documented and the documentation be maintained in a central file. Any
deviation from the approved contracting process is also required to be fully
documented, approved and maintained in the contract file.

By not subjecting these contracts to competitive bidding and documenting the
justification, it's not clear whether the grantee received the best price and service
available for the money spent.

Recommendation 3. The Executive Director should ensure that documentation
supporting all contract actions, including sole source, is prepared and maintained in a
central file.


DOCUMENTING POLICIES AND PROCEDURES

The grantee's practices in the areas of central office purchasing and derivative income
were not documented. Section 3-4 of the Accounting Guide states that each grantee
must develop a written accounting manual that describes the specific procedures to be
followed by the grantee in complying with the Fundamental Criteria. Fully documenting
policies and procedures helps ensure that proper controls are followed, serves as a
vehicle to communicate controls to all staff, and helps ensure that staff members
understand their roles and responsibilities.

Central Office Purchasing

The purchasing procedures for the LASO Central Administrative Office were not
documented in LASO's accounting manual or in any individual written policy or
procedure statement.     The purchasing policies and procedures not documented
included those governing purchasing approval, ordering, and receiving. We discussed
purchasing policies and procedures with LASO's Director of Finance and he confirmed
that the purchasing procedures for the Central Office were not documented in writing in
the accounting manual.

In the central and regional offices, designated individuals are authorized to approve
purchases of up to $1,000. The Director of Administration is authorized to approve
purchases of up to $10,000 and purchases of computer equipment. Once a purchase
order is approved, the office managers place orders for the regional offices, while the


                                           6
Accounts Payable Bookkeeper places orders for the central office. In central and
regional offices, purchases are received by the same individual that placed the order.
Receivers confirm that ordered items were received and indicate that by signing the
packing slip and providing it to approvers. Approvers prepare and sign payment
requests and submit them to accounting along with the packing slips.

According to Director of Finance, he is aware of the control risk presented by allowing
individuals that place orders to also receive them. He stated that the risk is due to
staffing constraints, but is mitigated by having the individual that approved the order
confirm with the receiver that the order was received before approving the payment
request.

During our testing of disbursements, we found the purchasing process functioned as
described above. Through our test work and review of the purchasing process, we
determined that the same person did not authorize a purchase, receive the related
goods and approve payment for those goods. While management has accepted the risk
of not separating the ordering and receiving functions, the possibility of fraud does exist.

Recommendation 4. The Executive Director should establish a process whereby the
purchasing function is adequately segregated so that employees responsible for placing
orders do not also have accounting or receiving responsibilities.

Derivative Income

The grantee does not have written policies and procedures in place regarding derivative
income. During our audit we performed tests of derivative income including attorneys'
fees and interest income. We believe the grantee has adequate practices in place;
however, those practices are not documented. The grantee's derivative income is
made up of the following:

   •   Investment and Interest income: LSC is allocated interest and increases or
       decreases in investment values based on the percent of LSC funds that are in
       the account.

   •   Attorneys' Fees: The grantee has a form that details the nature of attorneys'
       fees. The summaries in case files contain information including the funding
       sources. The attorneys' fees earned from an LSC funded case are directly coded
       back to LSC funds as income.

Recommendation 5. The Executive Director should ensure that LASO's accounting
manual contains written policies and procedures accounting for and allocating derivative
income, and that those policies and procedures are properly implemented.




                                             7
                   Summary of Grantee Management Comments

Grantee management agreed with 4 of the 5 findings and all of the recommendations in
the draft report. They did not agree with the OIG's finding that resulted in $9,099.96 in
questioned local bar dues. The grantee cited two reasons for disagreeing with the
questioned cost. The grantee detailed that it uses a cost allocation method that
includes an expense pool for LSC eligible expenses. Under the grantee's accounting
practices, non-LSC eligible expenses are not to be included in that pooled expense
account. The grantee acknowledged that the bar dues were erroneously coded as a
non-LSC eligible expense in their pooled account. However, they feel that although
erroneously coded, the bar dues were fully offset by the amount of LSC eligible costs
that were allocated to other funding sources, and, as a result, the LSC grant was not
overcharged. In addition, grantee management states that because the bar dues were
coded to an expense account where costs are allocated to funds from multiple funding
sources, it's not accurate for the OIG to conclude that the bar dues were paid solely with
LSC funds. They identified the portion of the pooled account allocated to LSC as
51 percent in 2009, 52 percent in 2010 and 55 percent in 2011 for a total allocated
amount of $4,789.08. Management's formal comments are included in their entirety in
Appendix" of this report.

Grantee management agreed with the finding on credit cards . They stated they were
aware that the office supply store accounts existed and asserted that the grantee has
maintained adequate controls over these accounts.            However, the grantee
acknowledges they are underwritten by a credit card company and is now treating the
accounts as credit card accounts.

The grantee agreed with our finding on the need for sole source justifications for
contracts awarded without competition and will implement our recommendation . LASO
management agreed to establish a process to adequately segregate their purchasing
process as recommended by the OIG. Lastly, the grantee agreed with the OIG's
recommendation to update the accounting manual to include all written policies and
procedures to account for derivative income.

                        OIG Evaluation of Grantee Comments

Grantee management stated they have already implemented the OIG's
recommendation to follow their written policy addressing bar dues, but disagree with the
questioned cost portion of the finding. Although grantee management acknowledged
the pooled expense account should not have included LSC unallowable bar dues, they
state that only a certain percentage of that pooled account was allocated to LSC funds
in 2009, 2010 and 2011. The OIG will accept the allocation percentages provided in the
grantee's response and only question the $4,789.08 amount, which is based on those
allocation percentages. Also, the grantee further stated there were more LSC eligible
costs allocated to other funding sources than were incorrectly coded as bar dues in the
pooled expense account, and as a result, the LSC grant was not overcharged in total.
However, this does not negate the fact that a portion of the dues were in fact allocated

                                            8
to LSC funding. The OIG will refer the $4,789.08 to LSC management for further review
and action.

The OIG considers the grantee's actions responsive to Recommendation 1 and that
recommendation is considered closed. As of FY 2013, the grantee no longer allocated
local bar dues to LSC funding.

The OIG considers grantee management's actions taken and planned to address
Recommendations 2, 3, 4 and 5 as responsive to the findings and recom-
mendations contained in the report. Recommendation 2 is considered closed as
the grantee has already evaluated its procedures for use of the cards,
documentation of purchases and review of documentation and payment of charges.
The OIG considers Recommendations 3, 4, and 5 open until notified in writing they
have been implemented by the grantee as provided for in its response .




                                          9
                                                                       APPENDIX I -
                         SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following activities:

   •   Disbursements
   •   Consulting Contracts
   •   Cost Allocation
   •   Credit cards
   •   Derivative income
   •   Internal management reporting and budgeting
   •   Property and equipment
   •   Salary Advances

To obtain an understanding of the internal controls over these areas, the grantee's
policies and procedures were reviewed, including any manuals, guidelines, memoranda,
and directives setting forth current grantee policies. Grantee officials were interviewed
to obtain an understanding of the internal control framework, and staff were interviewed
as to their knowledge and understanding of the processes in place. We assessed the
reliability of computer generated data provided by the grantee by reviewing source
documentation for the entries selected for review. We determined that the data were
sufficiently reliable for the purposes of this report.

To review and evaluate internal controls, the grantee's internal control system and
processes were compared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporting System (Fundamental Criteria) contained in the
LSC Accounting Guide. This review was limited in scope and not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations.

To test the appropriateness of expenditures and the existence of adequate supporting
documentation, disbursements from a judgmentally selected sample of employee and
vendor files were reviewed. The sample represented 3 percent of the approximately
$5,322,214 disbursed for expenses other than payroll during the period January 1,2011
to August 31, 2012 and consisted of 108 transactions totaling $168,541.

For the grantee expenditures sampled, we reviewed invoices, vendor lists, and traced
expenditures to the general ledger. The appropriateness of charging grantee
expenditures to LSC funds was evaluated on the basis of the grant agreements,
applicable laws and regulations, and LSC policy guidance.

To evaluate and test internal controls over consulting contracts, cost allocation, credit
card use, derivative income, internal management reporting and budgeting, property


                                           1-1
and salary advances, we interviewed appropriate program personnel, examined related
policies and procedures, and selected specific transactions to review for adequacy.

The initial on-site fieldwork was conducted at the grantee's central administrative office
in Portland, Oregon from January 8,2013 to January 15, 2013. The OIG conducted a
second on-site visit on November 4-5, 2013. Documents reviewed pertained to the
period January 1, 2011 to August 31, 2012. The remainder of our work was conducted
at LSC headquarters in Washington, DC.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                           1-2
                                                                                                                APPENDIX II

r------t Legal Aid
~ Services of Oregon
   Central Administrative Office· 520 SW Sixth Avenue. Suite IIJO • Portland, OR 97204 . (503) 224-4094 • Fax: (50l) 417-0141



   June 9, 2014

   John M. Seeba
   Office of Inspector General
   Legal Service Corporation
   3333 K Street Nw, 3rd Flo.or
   Washington, DC 20007-3558

   Re: Draft Report on Selected Internal Controls

   Dear Mr. Seeba:

   Thank YOll for the opportunity to comment on the draft audit report on selected internal
   controls at Legal Aid Service.s of Oregon. LASO sllbmits the following comments and
   corrections to the draft report

   BACKGROUND

   The list of LASO field offices on page 1 of the draft report inclu(les the Eugene office. LASO
   closed its Eugene. office in late 2012 due to LSC budget cuts.

   Recommendation 1. The Executive Director should ensure that the grantee fOllOWS its
   written policy addreSSIng the payment of bar dues anil membership fees .

   LASO Res.ponse: LASO has already implemented this recommendation. LASO has charged
   all local bar dues to non-LSC sources since the OlG's initial audit field work in January 2013
   and all accounting personnel have. been instructed to charge all local bar dues to non-LSC
   sources in the future. All managers, who submit requests for payment oibar dues to the
   Central Office for payment, have been reminded to designate non-LSC funds as the paynient
   source for local bar dues on LASO's request for payment form.

   LASO disagrees,.however, with the QIG's finding that LASO erroneously charged $9,099.96
   in local bar dues to LSC. LASO does not acknowledge, as the draft report states in footnote
   1, that it incorrectly charged that amount to LSC. LASO acknowledges that it charged that
   amount to a pooled account that contained some LSC funds. Under our accounting
   practic.es, non-LSC-eligible expenses are not to be included in that pooled expense account.
   We regret the. error fn induding local bar dues in t)lat pool and have taken steps to ensure
   that that error does not occur again. Nevertheless, we believe. that it is inaccurate to say
   that those costs were paid with LSC funds.

   First, we contend that, based on our allocation method, the amount assessed as a
   questioned cost is not accurate. LASO uses a cost allocation method that includes an

                                                               1
exp.e nse pool for LSC-eligible expenses. Allocations are done in the aggregate and not for
each individual expense. LASO acknowledges that in 2009-2011, it erroneously coded a
non-LSC eligible expense -local bar dues - to that pool and that the total amount of local
bar dues paid for those three years totals $9,099.96. However, becauSe the bar dues were
coded to an expense account where costs are allocated to funds from multiple funding
source.s, it is not accurate to conclude that these d·ues were paid ~ with LSC funds, 1 All
expenses in the expense pool, induding local bar du.es, were allocated to a combiIiation of
funds; JlQJlf. were allocated only to LSC funds. The OIG's draft findings correctly stat!!:
"These costs were initially recorded to a pooled expen·se account and then a portion of that
cost a1locatecj to LSC in accordance with the grantee's cost allocatiOn methodology"
(emphasis added). In 2009, 51% of LA SO's dues, fees and license expenses were allocat ed
to LSC; in 2010, 52% of those expenses were allocated to LSC; and in 2011, 55% of those
expenses were allocated to LSC. Therefore, at most, the amount of local ba r dues
erroneously allocated to LSC funds would equal $1,453.50 for 2009, $1,731.58 for 2010,
and $1,604.00 for 2011, for a total of $4,189.08.

Second, because the local bar dues were allocated to an a·c countthat uses·funds from
multiple sources, we maintain that any possible amount of questioiled costs was fully offset
by the amount of LSC-eligible costs in the pooled expense account LASO uses general
ledger account 7160 for expenses related to Dues/Fees/Licenses. The local bar dues at
issue were charged to that general ledger account. The spreadsheet provided to the OIG
during the audit shows the total expenditures from account 7160 for· 2009, 2010, and
2011; the amount of those eXllenditures that was LSC-eligible; the lower amount that was
actually charged to LSC; and the amolint ofthe locai bar' dues expenses for these years.

Excluding the amount of the Io.cal bar dues, in 2009 there were LSC-eligible costs in the
amount of $29,992.63 in the Dues/Fees/Licenses account, but we charged only $23,867.54
of that amount to LSC. In 2010, the LSC-eligible costs in the account totaled $31,727.41, but
we charged only $26,491.48 to LSC. In 2011, the LSC"eligible costs in the account totaled
$28,643.66, but we charged only $25,907.65 to LSC. For all three years, the amount of noh-
LSC funds used to P<lY for LSC-eligible costs exceeds the total amount charged to LSC and
exceeds the amount of the local bar dnes. As a result, we dispute a finding of questioned
costs in any amb.unt.

Recommen!Jation 2. The Executive Director should instruct the Director of Finance to
evaluate the current credit card procedures to determine whether they are adequate and
whether any changes need to be made to ensure all credit cards are properly issued and
controlled.

LASO Bespoil$e: LASO management, including the Director of Finance, was aware that its
regional offices maintained accounts with office supply stores that allowed the offices to


1 There are some expenses that we "hard code" as LSC expenses, such as some costs related to our PAl program.
For expenses in this pooled expense account, however, because we have insufficient LSC funds to cover all costs,
we allocate funds from 8 number of funding sources to pay these expenses.



                                                         2
purchase supplies without advance or contemporaneous payment. The accounts function
very similarly to a vendor account. For example, we have accounts with prihting
companies for letterhead, business cards, etc. Offices can place order" using these accounts
and we are billed later for the items we purchase. The office sop ply cards operate very
similarly to these and wen~ not viewe.d as Presenting the same type of concerns as a credit
card that can be used with multiple vendors and for a wide array of expenses.

LASO has maintained adequate internal controls over these accounts. Adminis.trative legal
assistants are responsible for keeping track of office supplies and plaCing orders, onder the
supervision of regional directors. LASO management authorized these employees to utilize
these accounts to purchase office supplies. Each regional office receives its own statement
for its office supply account at its office. Regional directors review and approve the
requests for payment for suppiies, as they do with other office bills and invoices. The office
submits the Office supply bill for payment by the Central Office through the regular
accounts payable procedures With all the necessary approV~ls and batk.up, As With all
accounts, we protect account informatiOn and provide limited acces.s. We have not had
problems with the office supply cards because they function so similarly to merchant
accounts.

Most of these accounts Were opened many years ago, before LASQ adopted an accounting
manual and credit card pOlicy. Because the accounts were viewed as the equivalent of
merchant accounts, they were notincorporated in the credit card policy when it was
adopted. Nevertheless, LASO acknowledges that the office supply acc.o unts are
underWritten by a. credit card company and is now treating the account~ as credit card
accounts.

The OIG's recommendation has been implemented. We have evaluated our procedures for
use of the cards, documentation of purchases, review of documentation and payment of
charges. We have determined that those procedures provide adequate internal controls
and that no changes ne.ed to be made to those procedures. After the OIG field work ih OUf
office in January of 20 13, the Director of Finance, in addition to following tbe regular
accounts payable procedures, reviewed any payments to Office Depot and Staples witb
extra scrutiny, That review revealed that there have been no transactions that differ from
these accounts being used as merchant-only accounts. No further new controls were
deemed necessary.

In addition to its review of internal controls related to these accounts, LASO cancelled the
Hillsboro Office Depot card and converted to a Quill merchant account. LASO also cancelled
the Office Depot card for the Klamath Falls office and reduced the credit limit on the Staples
card to $3000. 2 All authorized users of the office supply cards have Signed LASO's credit
card agreement. The LASO Board of Director's has revised our Accounting Manual to
specifically reference the office supply cards.



2   The correct credit limit for the Central Office card is $5,500, not $5,550 as stated in the draftreport


                                                           3
Recommendation 3. The Executive Director should ensure that justifications are
prepared and maintained for all sale source awarded contracts explaining why they were
awarded without competition.

LASQ Respons!!: LASO wiiI implement thiS recommendation when awarding sole source
contracts in the future.

ReCOIpmClldatioil t. The E"ecutive Director shO\.M es.tablish a process whereby the
pl\rchilsing function is adequately segre'gated So that employees responsible for placing
ord.ers do not also have accounting or receiving responsibilities.

LASQ Response: LASO will implement this recommendation.

RCcoromendlltilm 5. The Executive DIrector should ensure that LASO's accounting
manual contains written policies and pro.cedtlres accounting for and allocating derivative
income, and that those policies and procedures are properly implemented.

LASO Re5ponse: LASO will implement this recommendation. We agree with the OIG's
finding that we have adequ4te practices in place regarding derivative income but that those
practices are not specifically set forth in our Accounting Manual.

We appreciated the profesSional courtesies of the OIG reView team while they were on-site.
Thank you for your consideration of our comments. If yoU need any additional information,
please feel free to contact me.

Sincerely,



Janice R. Morgan
Exec\ltive Directo'r




                                              4
